TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                   Processes Are Not Sufficient to Minimize
                    Fraud and Ensure the Accuracy of Tax
                           Refund Direct Deposits



                                      September 25, 2008

                              Reference Number: 2008-40-182




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.



 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                   DEPARTMENT OF THE TREASURY
                                                         WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                September 25, 2008


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION

 FROM:                          Michael R. Phillips
                                Deputy Inspector General for Audit

 SUBJECT:                       Final Audit Report – Processes Are Not Sufficient to Minimize Fraud
                                and Ensure the Accuracy of Tax Refund Direct Deposits
                                (Audit # 200840007)

 This report presents the results of our review to determine whether Internal Revenue Service
 (IRS) processes and controls over the direct deposit of refunds into taxpayer bank accounts1 are
 adequate to ensure the deposits are accurate and to identify potentially misrouted or fraudulent
 direct deposits. This audit was included in our Fiscal Year 2008 Annual Audit Plan.

 Impact on the Taxpayer
 The IRS states that direct deposit provides taxpayers with a faster, more secure, more convenient
 means by which to receive their tax refunds. The IRS has offered taxpayers who electronically
 file this option since Tax Year 1987, and then expanded this option to include paper tax return
 filers beginning in Tax Year 1995. However, the IRS has not developed processes to ensure that
 the more than 61 million Filing Season 2008 tax refunds were deposited only to an account in the
 name of the filer, as required by Federal direct deposit regulations.2 Consequently, there is an
 increased risk of refund fraud as well as the potential that inadvertent errors can result in
 depositing refunds into the wrong bank account.




 1
   The term bank account is used throughout the report to indicate an allowed depository account. These accounts
 may also be at non-bank financial institutions such as savings and loans, credit unions, or investment institutions.
 2
   Code of Federal Regulations Title 31 Part 210.
                   Processes Are Not Sufficient to Minimize Fraud and Ensure the
                             Accuracy of Tax Refund Direct Deposits




Synopsis
The IRS has not developed sufficient processes to ensure that the more than 61 million Filing
Season 2008 tax refunds were deposited to an account in the name of the filer. Federal
regulations specify that non-vendor direct deposit payments should be made only to a deposit
account in the name of the recipient. The IRS acknowledged that tax refunds are subject to
payment guidance in the regulations but stated that the
regulations do not specify responsibility for enforcing     The IRS is not in compliance
the requirements. The IRS places responsibility for        with direct deposit regulations
compliance with Federal direct deposit regulations on        that require tax refunds be
the taxpayer—indicating it is the taxpayer’s               deposited to an account only in
                                                                 the name of the filer.
responsibility to ensure that their tax refunds are only
directly deposited into their accounts.
In our opinion, the IRS is responsible for ensuring that direct deposits are made to an account in
the name of the recipient. Representatives from the Financial Management Service3 also
indicated that the IRS is responsible for enforcing the Code of Federal Regulations requirement.
The IRS has taken limited actions to ensure the accuracy of direct deposit information. These
actions include verifying bank routing numbers, verifying that bank account numbers are
formatted correctly, informing taxpayers in the tax return instructions about entering wrong
account information, and informing taxpayers that they may not request that the IRS deposit their
tax refund into an account that is not in their name. Nonetheless, some tax refunds are being sent
to accounts that are not in the name of the taxpayer. Analysis of IRS direct deposit data
identified bank accounts receiving multiple (three or more) tax refunds. For Calendar Year
2007, over 700,000 bank accounts received 3 or more tax refunds, totaling approximately
                                        $8.14 billion. In addition, during Calendar Year 2006,4 the
    The IRS has not established a
                                        IRS worked an estimated 1,800 cases in which a
     consistent process to assist       taxpayer’s refund was deposited into an account not in
      taxpayers in recovering tax       their name resulting from a taxpayer or IRS transcription
   refunds deposited to the wrong       error, with most being taxpayer error.
             bank accounts.
                                      The inability of the IRS to ensure the accuracy of direct
                                      deposit account information increases fraud potential and
taxpayer burden. Direct deposit is frequently the payment method used by individuals who

3
  The agency of the Department of the Treasury that issues, researches, and keeps all records of United States
Treasury checks.
4
  Calendar Year 2006 is the most current year with complete information.
                                                                                                                 2
                Processes Are Not Sufficient to Minimize Fraud and Ensure the
                          Accuracy of Tax Refund Direct Deposits



attempt to commit filing fraud. Direct deposit provides the ability to quickly receive fraudulent
tax refunds without the difficulty of having to negotiate a tax refund paper check. In addition,
taxpayer refunds can be deposited into a wrong bank account as a result of an error. When direct
deposits are made to the wrong account, the assistance provided to taxpayers is inconsistent.
Specifically, the IRS has not established a consistent process to assist taxpayers in recovering
their tax refunds when erroneously deposited. Assistance provided ranged from no contact with
the bank to which the refund was erroneously deposited to contacting the bank to request return
of the refund.
The use of direct deposit is encouraged by the IRS because of the benefits to both the taxpayer
and the Federal Government. The lack of a process to ensure that tax refunds are directly
deposited only into an account in the name of the taxpayer results in erroneous deposits.
Although the IRS cautions taxpayers as to the need to provide accurate direct deposit
information, IRS assistance should be provided in an attempt to recover the tax refund in cases in
which the taxpayer provided a wrong bank routing or account number.

Recommendations
The Commissioner, Wage and Investment Division, should coordinate with responsible Federal
agencies and banking institutions to develop a process to ensure that direct deposit payments are
made only to a deposit account in the name of the recipient. Meanwhile, until a process is in
place, the IRS should limit the number of direct deposits being sent to the same account to both
help the IRS comply with Federal regulations and to reduce fraud potential. In addition, an
education campaign should be developed to clearly alert taxpayers and tax return preparers of the
requirement that direct deposits only be made to accounts in the name of a recipient. Finally,
procedures should be improved for assisting taxpayers in recovering their erroneously deposited
tax refunds.

Response
IRS management partially agreed with part of our first recommendation and disagreed with the
second part of that recommendation, and agreed with our other two recommendations. IRS
management agreed that coordination between the IRS, responsible Federal agencies, and
banking institutions is necessary to develop a process to ensure that direct deposit payments are
made only to a deposit account in the name of the recipient. However, IRS officials believe that
coordinating a recommendation of this type is beyond their jurisdiction. The IRS disagreed with
the recommendation to limit the number of direct deposits allowed to the same account because
limiting the number of direct deposits would not verify that the refunds are deposited in an
account in the taxpayer’s name. A similar proposal was previously implemented by the IRS but
had to be withdrawn due to the number of circumstances in which multiple deposits to a single

                                                                                                 3
                   Processes Are Not Sufficient to Minimize Fraud and Ensure the
                             Accuracy of Tax Refund Direct Deposits



account were legitimate and acceptable because the accounts were held in the names of multiple
individuals.
Management agreed to include a statement in the instructions for the U.S. Individual Income Tax
Return (Form 1040) cautioning taxpayers that refunds may be direct deposited only into accounts
in their name. In addition, taxpayers obtaining assistance via an IRS Volunteer Income Tax
Assistance site will be alerted of the requirement to deposit refunds only into an account in their
name. The IRS plans to explore additional opportunities to highlight direct deposit requirements
to taxpayers and tax professionals. To improve procedures for assisting taxpayers in recovering
erroneously deposited refunds, the IRS will update its internal guidance to include specific steps
IRS employees are to initiate when an inquiry is received. Management’s complete response to
the draft report is included as Appendix IV.

Office of Audit Comment
Although IRS management agreed that coordination between responsible Federal agencies and
banking institutions is necessary to develop a process to ensure that direct deposit payments are
made only to an account in the name of the recipient, IRS management does not believe they
should initiate this coordination. In addition, the IRS disagreed with the recommendation to
limit the number of direct deposits being sent to the same account. However, IRS management
offered no alternative actions to reduce the potential fraud associated with multiple direct
deposits to the same account. The IRS noted that a similar proposal was previously implemented
in which it completed programming to identify direct deposits being sent to the same account.
For those accounts with more than five deposits, the refund was converted to a paper check.
However, the IRS used this process for only one cycle (1 week). Subsequent to receiving a
number of complaints from small tax return preparers who were initiating Refund Anticipation
Loans and Refund Anticipation Checks,5 the IRS cancelled this process. If the preparers had
established unique accounts for the Refund Anticipation Loans and Refund Anticipation Checks
as required, they would not have encountered a problem.
We believe that rather than cancelling this new process after 1 week, the IRS should have taken
steps to refine the process and advise tax preparers and taxpayers to follow the regulations. As it
stands, individuals use direct deposit to commit refund fraud, and there are instances in which
thousands of refunds were sent to the same account in violation of the Code of Federal


5
 Refund Anticipation Loans are short-term loans secured by the taxpayer’s expected tax refund. Refund
Anticipation Checks are the non-loan bank products that many commercial tax preparers and their bank partners
offer in addition to Refund Anticipation Loans.




                                                                                                                4
                 Processes Are Not Sufficient to Minimize Fraud and Ensure the
                           Accuracy of Tax Refund Direct Deposits



Regulations. As the use of direct deposit grows, the risk of potential large-scale fraud will
increase.
Please contact me at (202) 622-6510 if you have questions or Michael E. McKenney, Assistant
Inspector General for Audit (Wage and Investment Income Programs), at (202) 622-5916.




                                                                                                5
                      Processes Are Not Sufficient to Minimize Fraud and Ensure the
                                Accuracy of Tax Refund Direct Deposits




                                              Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 5
          Processes Are Not Sufficient to Ensure the Accuracy
          of Direct Deposits .........................................................................................Page 5
                    Recommendation 1: .................................................................. Page 11

                    Recommendations 2 and 3: ....................................................... Page 13


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 15
          Appendix II – Major Contributors to This Report ........................................Page 17
          Appendix III – Report Distribution List .......................................................Page 18
          Appendix IV – Management’s Response to the Draft Report ......................Page 19
      Processes Are Not Sufficient to Minimize Fraud and Ensure the
                Accuracy of Tax Refund Direct Deposits




                     Abbreviations

FMS            Financial Management Service
IRS            Internal Revenue Service
                    Processes Are Not Sufficient to Minimize Fraud and Ensure the
                              Accuracy of Tax Refund Direct Deposits




                                                Background

The Internal Revenue Service (IRS) states that direct deposit provides taxpayers with a faster,
more secure, more convenient means by which to receive their tax refunds. Direct deposit of a
tax refund costs the IRS less than the issuance of a paper refund check—$0.06 compared to
$0.55.1 Both electronic (e-file) and paper tax return filers may request direct deposit. The IRS
has offered e-file taxpayers the option since Tax Year 1987, and then expanded the option to
include paper tax return filers beginning in Tax Year 1995. In Tax Year 2006, the IRS began
providing taxpayers with the ability to have their tax refund split and electronically deposited in
up to three accounts.2 Figure 1 shows the increase in the use of direct deposit over the last
5 filing seasons.3
                  Figure 1: Filing Season Direct Deposit Refund Statistics

                 Number of Refunds (millions)                                 Amount Refunded (billions)

    70                                                       $180

    60                                                       $160
                                                                                                             166.5
                                                 61.8        $140
    50                                   57.2                                                        153.5
                                                             $120                          138.3
                              53.1
    40              49.4                                     $100               125.1
          46.2
                                                                      112.5
    30                                                        $80
                                                              $60
    20
                                                              $40
    10                                                        $20
     0                                                         $0
          2004     2005      2006       2007     2008                2004      2005       2006      2007     2008



Source: Statistics of Income Tax Statistics - Filing Season Statistics 2004-2008.4

Regulations require direct deposits be made to accounts in the recipient’s name
Federal regulations5 specify that non-vendor direct deposit payments should be made only to a
deposit account in the name of the recipient. For consumer protection, the regulations are
designed to ensure that payments reach the intended recipient by requiring payments to be


1
  The Financial Management Service provided these cost estimates.
2
  As of May 26, 2008, a total of 225,364 individuals used this option.
3
  The filing season is the period from January through mid-April when most individual income tax returns are filed.
4
  IRS Filing Season statistics are for the weeks ending April 23, 2004, April 22, 2005, April 21, 2006,
April 20, 2007, and April 19, 2008.
5
  31 Code of Federal Regulations Part 210.
                                                                                                              Page 1
                    Processes Are Not Sufficient to Minimize Fraud and Ensure the
                              Accuracy of Tax Refund Direct Deposits



deposited into an account in which the recipient has an ownership interest.6 The Federal
Register7 specified that regulations apply to payments made by the IRS (tax refunds), and the
deposit account should not be a loan account or a general ledger account.8 In accordance with
Federal regulations, the IRS policy is that direct deposits of tax refunds be made only into an
account in the name of the taxpayer.

Electing to receive tax refunds via direct deposit
To obtain a tax refund via direct deposit, the taxpayer is required to provide the following
information on his or her tax return:
    •    Bank routing number
    •    Bank account number
    •    Type of bank account (checking or savings)
Figure 2 provides an example of where the required information is to be provided on the tax
return.
                      Figure 2: Direct Deposit Lines from 2007 Form 1040




Source: 2007 U.S. Individual Income Tax Return (Form 1040).

Processing of direct deposit tax refunds
When the IRS is ready to complete the direct deposit transaction, it transmits the tax refund
information to the Financial Management Service (FMS). The FMS is the agency of the
Department of the Treasury that issues, researches, and keeps all records of United States
Treasury checks.9 After it receives the direct deposit data from the IRS, the FMS transmits direct
deposit information to the Automated Clearing House. The Automated Clearing House is the
primary electronic funds transfer system used by Federal agencies to make payments. The
Federal Reserve Bank operates the Federal Government’s Automated Clearing House.




6
  Federal Register, Vol. 64. No. 68, April 9, 1999, pp. 17479-17480.
7
  The Federal Register is the official daily publication for rules, proposed rules, and notices of Federal agencies and
organizations, as well as executive orders and other presidential documents.
8
  Federal Register, Vol. 64. No. 68, April 9, 1999, pp. 17474 and 17477.
9
  These transactions are handled by FMS Regional Financial Centers.
                                                                                                                Page 2
                   Processes Are Not Sufficient to Minimize Fraud and Ensure the
                             Accuracy of Tax Refund Direct Deposits



If the bank account10 number does not match an account number at the specific financial
institution that receives the tax refund, then the financial institution normally rejects the direct
deposit back to the FMS, generally within 3 days. The FMS notifies the IRS of any returned
direct deposit refunds. The IRS will then issue the tax refund as a paper check and send the
check to the taxpayer. A notice will automatically be sent to the taxpayer when this occurs
explaining that the direct deposit was not honored and a paper check is being issued. Of the
approximately 889,000 direct deposits that could not be processed in Calendar Year 2007,
approximately 412,000 (46 percent) were due to rejection by the bank.

Refund traces are performed in an attempt to locate direct deposits sent to an
incorrect bank account
If the IRS receives a taxpayer inquiry regarding a direct deposit that has not been received–and
the IRS cannot find an obvious reason for non-receipt–a refund trace will be initiated. A refund
trace results in the IRS forwarding information to the FMS for research to determine what
occurred with the refund payment. The FMS will advise
the IRS of the results of its research as to whether the
refund was paid or is outstanding, or if the trace was not    The National Taxpayer Advocate
                                                                reported that the IRS has not
valid for some reason and additional action is required
                                                               developed procedures to assist
by the IRS.                                                   taxpayers who provide incorrect
                                                                   direct deposit account
The National Taxpayer Advocate11 reported12 that about
                                                                        information.
15,550 direct deposit refund traces were initiated in
Calendar Year 2004 to resolve a potential problem with
a direct deposit refund. Of those, almost 10 percent
were the result of some type of error on the part of the taxpayer. The National Taxpayer
Advocate was concerned that there is no process to handle cases resulting from taxpayer error
and no IRS remedy is available to the taxpayer to attempt to recover his or her lost refund. The
IRS responded that the actions it can take are limited by requirements enforced by financial
institutions.
This review was performed at the IRS National Headquarters in Washington, D.C., during the
period December 2007 through June 2008. We conducted this performance audit in accordance
with generally accepted government auditing standards. Those standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
our findings and conclusions based on our audit objective. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our audit

10
   The term bank account is used throughout the report to indicate an allowed depository account. These accounts
might also be at certain non-bank financial institutions such as savings and loans or credit unions.
11
   An independent organization within the IRS to help taxpayers resolve problems with the IRS and recommend
changes that will prevent these problems.
12
   National Taxpayer Advocate 2005 Annual Report to Congress, dated December 31, 2005.
                                                                                                          Page 3
                Processes Are Not Sufficient to Minimize Fraud and Ensure the
                          Accuracy of Tax Refund Direct Deposits



objective. Detailed information on our audit objective, scope, and methodology is presented in
Appendix I. Major contributors to the report are listed in Appendix II.




                                                                                         Page 4
                   Processes Are Not Sufficient to Minimize Fraud and Ensure the
                             Accuracy of Tax Refund Direct Deposits




                                      Results of Review

Processes Are Not Sufficient to Ensure the Accuracy of Direct
Deposits
The IRS has not developed processes to ensure that the more than 61 million Filing Season 2008
tax refunds were deposited to an account in the name of the filer, as required by Federal direct
deposit regulations. The IRS acknowledged that tax refunds are subject to payment guidance in
31 Code of Federal Regulations Part 210 but stated
that the regulations do not specify responsibility for       The IRS is not in compliance
enforcing the requirements. In our opinion, the IRS is      with direct deposit regulations
responsible for ensuring that direct deposits are made        that require tax refunds be
                                                           deposited to an account only in
to an account in the name of the recipient.
                                                                  the name of the filer.
Representatives from the FMS also indicated that the
IRS is responsible for enforcing the Code of Federal
Regulations requirement.
The IRS places responsibility for compliance with Federal direct deposit regulations on the
taxpayer—indicating that it is the taxpayer’s responsibility to ensure that their tax refunds are
only directly deposited into their accounts. Taxpayers are informed that they may not request the
IRS to deposit their tax refunds in an account that is not in their name. However, we found that
this information is only included in the instructions associated with the use of the split-refund
direct deposit option. As of May 26, 2008, a total of 225,364 of the more than 61 million
taxpayers electing to directly deposit their tax refund used this option.13 The IRS does not
include a similar caution in the U.S. Individual Income Tax Return (Form 1040) or in the
associated instructions. Developing a process to ensure the accuracy of direct deposits will
minimize the potential for fraud and reduce taxpayer burden resulting from errors in depositing
tax refunds into the wrong accounts.

Limited actions have been taken to ensure the accuracy of direct deposits
The IRS has taken certain actions to ensure the accuracy of direct deposit information by:
     •   Ensuring that 1) bank routing numbers are compared to a list of valid routing numbers
         from the Federal Reserve Bank, 2) bank routing numbers consist of numeric characters in
         a certain range of values, 3) bank account numbers consist of alphanumeric characters,


13
  The number of split-refund direct deposits is as of May 26, 2008. The number of taxpayer requests for direct
deposits is as of April 19, 2008, the most recent date for which we could obtain reliable information.
                                                                                                           Page 5
                      Processes Are Not Sufficient to Minimize Fraud and Ensure the
                                Accuracy of Tax Refund Direct Deposits



           with only a dash as a permitted special character, and 4) bank account numbers are
           entered twice to help prevent keying errors.
       •   Including in the Form 1040 instructions information that warns taxpayers that the IRS is
           not responsible for a lost refund if the taxpayer enters the wrong account information. It
           is the taxpayer’s responsibility to ensure that the direct deposit information is accurate
           prior to filing the tax return.
       •   Including in the Direct Deposit of Refund to More Than One Account (Form 8888)
           instructions informing taxpayers that they may not request the IRS to deposit their tax
           refunds into an account that is not in their name.
Despite these actions, tax refunds are being sent to accounts that are not in the name of the
taxpayer. Analysis of IRS direct deposit data identified bank accounts receiving multiple (three
or more) tax refunds. For Calendar Year 2007, more than 700,000 bank accounts received 3 or
more tax refunds, totaling approximately $8.14 billion. In addition, during Calendar Year
2006,14 the IRS worked an estimated 1,800 cases in which a taxpayer’s refund was deposited into
someone else’s account, resulting from a taxpayer or IRS transcription error, with most being
taxpayer error. Figure 3 reveals the distribution of direct deposit refunds to unique bank
accounts in Calendar Year 2007.
      Figure 3: Distribution of Refund Direct Deposits to Unique Bank Accounts in
                                   Calendar Year 2007
        Direct        Number of        Cumulative                                            Dollar
       Deposits     Direct Deposit     Percentage        Number of        Cumulative       Amount of      Cumulative
         per          Accounts             of             Refunds         Percentage        Refunds       Percentage
        Bank                            Accounts                          of Refunds                       of Dollars
       Account                                                                              In millions


       1            55,617,861           96.0%         55,617,861             89.3%      $156,302           90.9%
       2             1,587,047           98.8%          3,174,094             94.4%         $7,425          95.3%
       3               329,946           99.3%            989,838             96.0%         $2,351          96.6%
       4               139,028           99.6%            556,112             96.9%         $1,342          97.4%
       5                76,631           99.7%            383,155             97.5%           $925          98.0%
       6 or more       163,954         100.0%           1,551,505         100.0%            $3,523          100.0%
           Total    57,914,467                         62,272,565                        $171,868
     Source: Treasury Inspector General for Tax Administration analysis of IRS direct deposit data.




14
     Calendar Year 2006 is the most current year with complete information.
                                                                                                           Page 6
                   Processes Are Not Sufficient to Minimize Fraud and Ensure the
                             Accuracy of Tax Refund Direct Deposits



The inability to ensure the accuracy of direct deposits increases fraud potential
Direct deposit is frequently the payment method used by individuals who attempt to commit
filing fraud. Direct deposit provides the ability to quickly receive fraudulent tax refunds without
the difficulty of having to negotiate a tax refund paper check. For example, on February 7, 2008,
an individual was sentenced to 36 months in prison. According to his plea agreement, the
individual paid other individuals approximately $100 in exchange for their Social Security
Numbers and dates of birth. The Social Security Numbers were then used to file Federal tax
returns claiming false refunds. The refunds were directly deposited into one bank account. The
total amount of the false refunds claimed through this conspiracy was approximately $76,869.
In another example, an income tax preparer pleaded guilty and was sentenced to more than
6 years in Federal prison for failing to file tax returns or filing false returns on behalf of himself
and unwitting clients during a 3-year period. Investigators believe he prepared at least 244 false
tax returns and victimized many of his clients. IRS officials accused him of altering client tax
returns “to fraudulently increase the amount of certain deductions to inflate the amounts of
refund” and had the refunds deposited into his business bank account.
Figure 4 provides a breakdown of the most egregious examples of multiple tax refunds being
deposited to the same account. It should be noted that some of the cases in Figure 4 might relate
to tax return preparers not in conformance with Refund Anticipation Loan or Refund
Anticipation Check15 guidelines. Specifically, the Handbook for Authorized IRS e-file Providers
of Individual Income Tax Returns (Publication 1345) directs tax return preparers to work with a
separate financial institution to provide these products. Financial institutions generally use the
Social Security Number of the taxpayer as part of the account number to differentiate recipients
and to make each account unique.




15
  A Refund Anticipation Loan is a short-term loan secured by the taxpayer’s expected tax refund. A Refund
Anticipation Check is the non-loan bank product that many commercial tax preparers and their bank partners offer in
addition to Refund Anticipation Loans.
                                                                                                           Page 7
                   Processes Are Not Sufficient to Minimize Fraud and Ensure the
                             Accuracy of Tax Refund Direct Deposits



     Figure 4: Bank Accounts with Direct Deposit Volumes greater than 1,000 in
                               Calendar Year 2007
                  Direct Deposits Per Bank Account                Dollar Amount of Refunds
                (one bank account at each volume level)

                                1,056                                             $2,580,975
                                1,121                                             $1,498,583
                                1,223                                               $612,114
                                2,534                                             $1,326,759
                                2,800                                            $13,043,563
                                2,838                                             $7,477,791
                                2,942                                             $1,659,781
                                3,404                                               $377,560
                                4,572                                             $1,266,220
                                4,969                                             $2,581,784
                                12,304                                              $371,355
                                58,465                                           $28,621,171
              Source: Treasury Inspector General for Tax Administration analysis of IRS direct deposit data.

In Calendar Year 2007, the Questionable Refund Program16 identified approximately
243,000 potentially fraudulent cases with refund claims totaling approximately $1.46 billion,
with $1.2 billion17 reportedly stopped from being refunded. Of these 243,000 cases,
approximately 147,000 cases (60 percent) requested a direct deposit of the refund.
The IRS has unique challenges not faced by other Federal agencies that affect its ability to
comply with Federal regulations. For example, representatives from the Social Security
Administration, the Office of Personnel Management, and the Department of Agriculture’s
National Finance Center stated that they use identity and authentication controls prior to
initiating the recurring beneficiary-type payments made by these agencies. In contrast, the IRS
generally makes only one payment a year to taxpayers. The extensive processes used by other
Federal agencies to validate identity and bank account information would be burdensome to
taxpayers and would be difficult for the IRS to implement for tax payments.
However, to improve IRS conformance with direct deposit regulations and to help minimize
fraud, we believe actions should be taken to limit the number of tax refunds being sent to the
same account. While such a limit does not ensure that all direct deposits are in the name of the

16
   The Questionable Refund Program was established to detect, investigate, and prevent questionable individual and
business tax return based refunds in a timely manner.
17
   Taken from the IRS Commissioner’s testimony before the Senate Finance Committee on April 10, 2008.
                                                                                                           Page 8
                 Processes Are Not Sufficient to Minimize Fraud and Ensure the
                           Accuracy of Tax Refund Direct Deposits



filer, it does help limit deposits going to the account not in the name of the taxpayer and the
potential for fraud. If a limit was in place, the remaining refunds would be converted to a paper
refund check and sent to the taxpayers. If a fraudulent tax refund is converted (direct deposit
request is denied) to a paper check, cashing the paper check would be more difficult than simply
withdrawing the direct deposit amount.
When we brought the option of limiting the number of direct deposits to the same account to the
attention of IRS management officials, they responded that implementing such a control is not
their responsibility. They noted that the Federal direct deposit regulations do not specify that the
IRS is responsible for ensuring compliance with these guidelines. They also stated that it is the
taxpayer’s responsibility to comply with Federal direct deposit regulations. However, IRS data
clearly demonstrates there is some noncompliance with the regulations (see Figure 4). The intent
of limiting the number of direct deposits to the same account is to reduce the potential for
substantial refund fraud. The IRS has the responsibility to prevent refund fraud.

A consistent process has not been developed to assist taxpayers in recovering
erroneously deposited tax refunds
Taxpayer refunds can be deposited into a wrong bank account as a result of the IRS not having
sufficient processes to ensure that refunds are made only to an account in the name of the
recipient. When direct deposits are made to the wrong account, the assistance provided to
taxpayers is inconsistent. Specifically, the IRS has not established a consistent process to help
                                        taxpayers recover their erroneously deposited tax refunds.
                                        Before we brought our concern to IRS officials’ attention,
    The IRS has not established a       they were under the impression that employees were
      consistent process to help
    taxpayers recover tax refunds       consistently assisting these taxpayers. This would include
     deposited to the wrong bank        employees contacting the bank to which the tax refund
              accounts.                 was erroneously deposited to request return of the refund.
                                        Subsequently, IRS officials determined that actions taken
                                        by employees responsible for assisting taxpayers with
refund traces were not consistent. Assistance provided ranged from no contact with the bank to
which the refund was erroneously deposited to contacting the bank to request return of the
refund.
While the IRS has no authority to compel the banks to return erroneous tax refund deposits, IRS
employees can ask the bank to return the money in an effort to help assist the taxpayer. The total
number of taxpayers whose tax refunds are erroneously deposited is unknown. However, we
estimate that of the 16,089 direct deposit refund trace cases in Calendar Year 2006, almost 1,800
resulted from a transcription mistake either by the taxpayer or the IRS, with most being a
taxpayer error.
Direct deposit provides benefits to both the taxpayer and Federal Government. The use of direct
deposit is encouraged by the IRS. Although the IRS cautions taxpayers of the need to provide

                                                                                             Page 9
                Processes Are Not Sufficient to Minimize Fraud and Ensure the
                          Accuracy of Tax Refund Direct Deposits



accurate direct deposit information and that the taxpayer is responsible for the erroneous
deposits, IRS assistance should be provided in an attempt to recover the tax refund.
Representatives from the Federal Reserve Bank indicated that as more individuals choose direct
deposit, mistakes will be made by taxpayers, and it would be best for all if procedures are in
place to assist these taxpayers in recovering their tax refund to avoid any possible adverse media
coverage. Further, our review of 26 randomly selected refund trace cases identified that the tax
refund represented a significant part of the taxpayer’s income, and losing the tax refund will
likely present a significant burden to these taxpayers. These taxpayers were primarily
lower-income taxpayers with an average Adjusted Gross Income of $19,200 and an average tax
refund of $1,600.

The IRS provides financial institutions identifying information that could be used
to ensure that refunds are deposited only into an account in the name of the
taxpayer
Information that could be used to ensure that tax refunds are deposited into an account in the
recipient’s name is provided by the IRS to the FMS, which then transmits the information to
financial institutions. This information includes the taxpayer’s Social Security Number, name,
address, and spouse’s Social Security Number. Regulations developed by the FMS specify that
the financial institution is not responsible for matching on any identifying information other than
the deposit account number. FMS guidance also states that the financial institution is not liable
for any loss when deposits are made in accordance with
the instructions from the IRS (refund deposited into
account specified by the IRS).                                    Information is provided to
                                                              financial institutions that could
Representatives from the FMS indicated that some                 be used to ensure that tax
banks, possibly those with fewer direct deposits, do              refunds are deposited in
                                                             accounts in the name of the filer.
match on more than the deposit account number. The
FMS did not have data identifying the specific financial
institutions that match on more than the account number.
Banking officials indicated that financial institutions would face a number of obstacles if they
were to develop a process to match on more than the account number. Of greatest concern is that
not all financial institutions have the capability to perform such a match using an automated
process. Consequently, expenses would be incurred to either upgrade the automated systems or
to manually process the tax refund transactions.
The FMS previously considered making changes to require better matching of account
information at financial institutions. The FMS proposed regulations in 1998 that would have
provided a means of validating financial institution recipient identity on a case-by-case basis.
The proposed regulations were never implemented, but would have required financial institutions




                                                                                           Page 10
                   Processes Are Not Sufficient to Minimize Fraud and Ensure the
                             Accuracy of Tax Refund Direct Deposits



to verify that the account number and one other item of information in a pre-notification18 entry
both related to the same account. The pre-notification process, then as now, generally only
matches on the account number and verifies that the account exists at the financial institution, but
does not provide assurance that the account belongs to the intended recipient. The FMS proposal
only related to pre-notifications submitted by Federal agencies.
While several Federal agencies supported such a regulation change, financial institutions were
opposed. Financial institutions raised concerns that pre-notification would result in additional
costs to match on more than the bank account number, along with system constraints that would
have made the matching process problematic. Federal Reserve Bank officials strongly
encouraged the adoption of regulations similar to those proposed by the FMS, but noted that
regulatory changes would be required. They suggested that if such regulations could be put in
place, the IRS could apply them to only certain transactions–such as deposits in which the IRS
does not have previous year information to match–in order to minimize effort and expense.

Recommendations
The Commissioner, Wage and Investment Division, should:
Recommendation 1: Coordinate with responsible Federal agencies and banking institutions
to develop a process to ensure that direct deposit payments are made only to a deposit account in
the name of the recipient. In addition, until a process is in place, the IRS should limit the number
of direct deposits being sent to the same account to help the IRS comply with Federal regulations
and to help reduce the potential for fraud.
        Management’s Response: IRS management partially agreed that coordination
        between the IRS, responsible Federal agencies, and banking institutions is necessary to
        develop a process to ensure that direct deposit payments are made only to a deposit
        account in the name of the recipient. Issuance of any rules or regulations related to
        verification of depositor identity by financial institutions more properly falls within the
        jurisdiction of the FMS, which is responsible for the administration of Government-wide
        direct deposit requirements on behalf of the Department of the Treasury. As such, the
        IRS will forward a copy of the report to the FMS with the suggestion that they consider
        this recommendation. The FMS proposed a regulation in 1998 that would have required
        financial institutions to match account numbers against names for direct deposit
        payments they receive. It is their understanding that these regulations were not
        implemented due to the overwhelming number of negative comments on the proposal
        because it would have added a substantial manual process to the otherwise automated


18
  A pre-notification is a non-dollar entry sent through the electronic payments system which contains the same
information (with the exception of the dollar amount and an accounting code) that will be carried on subsequent
entries.
                                                                                                          Page 11
         Processes Are Not Sufficient to Minimize Fraud and Ensure the
                   Accuracy of Tax Refund Direct Deposits



system used for Federal payments. To the extent the FMS opts to pursue any such
regulations, the IRS will be available to assist. However, IRS officials believe that
coordinating a recommendation of this type is beyond their jurisdiction.
The IRS carefully considered limiting the number of direct deposits being sent to the
same account. Their first concern is that limiting the number of direct deposits being sent
to the same account would not verify that the refunds are deposited in an account in the
taxpayer’s name, as required by 31 Code of Federal Regulations Part 210. Second, a
similar proposal was previously implemented by the IRS in an attempt to reduce the
opportunity for filing fraud. Unfortunately, it had to be withdrawn due to the number of
circumstances where multiple deposits to a single account were legitimate and acceptable
because the accounts were held in the names of multiple individuals. In addition, there is
a burden issue for taxpayers who, for historic reasons or for reasons related to
considerations outside the tax law, have maintained shared bank accounts, such as Native
American groups or religious orders. These situations exist in an even greater number
now and prevent implementation of this recommendation. The Criminal Investigation
Division Fraud Detection Centers use pre-established criteria to run queries, one of which
can identify multiple deposits into the same bank account. If criminal potential exists, the
information will be forwarded to the field office for further investigation.
Office of Audit Comment: Although IRS management agreed that coordination
between responsible Federal agencies and banking institutions is necessary to develop a
process to ensure that direct deposit payments are made only to an account in the name of
the recipient, IRS management does not believe they should initiate this coordination. In
addition, the IRS disagreed with the recommendation to limit the number of direct
deposits being sent to the same account. However, IRS management offered no
alternative actions to reduce the potential fraud associated with multiple direct deposits to
the same account. The IRS noted that a similar proposal was previously implemented in
which it completed programming to identify direct deposits being sent to the same
account. For those accounts with more than five deposits, the refund was converted to a
paper check. However, the IRS used this process for only one cycle (1 week).
Subsequent to receiving a number of complaints from small tax return preparers who
were initiating Refund Anticipation Loans and Refund Anticipation Checks, the IRS
cancelled this process. If the preparers had established unique accounts for the Refund
Anticipation Loans and Refund Anticipation Checks as required, they would not have
encountered a problem.
We believe that rather than cancelling this new process after 1 week, the IRS should have
taken steps to refine the process and advise tax preparers and taxpayers to follow the
regulations. As it stands, individuals use direct deposit to commit refund fraud, and there
are instances in which thousands of refunds were sent to the same account in violation of


                                                                                     Page 12
                Processes Are Not Sufficient to Minimize Fraud and Ensure the
                          Accuracy of Tax Refund Direct Deposits



       the Code of Federal Regulations. As the use of direct deposit grows, the risk of potential
       large-scale fraud will increase.
Recommendation 2: Develop an education campaign to clearly alert taxpayers and tax return
preparers of the requirement that direct deposits only be made to accounts in the name of a
recipient. In addition, include a statement in the individual income tax return instructions or on
the tax return cautioning taxpayers that they cannot request a deposit of their refund to an
account that is not in their name (such as their tax preparer’s account).
       Management’s Response: IRS management agreed that for taxpayers served by the
       Volunteer Income Tax Assistance and Tax Counseling for the Elderly programs, the
       Stakeholder Partnerships, Education and Communication function will continue to alert
       its taxpayers and volunteers that direct deposits only are made to accounts in the name of
       a recipient. It currently covers direct deposit in all of its volunteer training materials for
       use by its community partnering organizations and their volunteers. The Volunteer
       Student Guide (Publication 678), the online Link and Learn Taxes training, and the new
       Process-Based Training to be rolled out nationwide in Fiscal Year 2009, all contain
       language instructing volunteers to advise taxpayers that their refunds may only be
       directly deposited into their own accounts. Management also agreed to include the
       following statement in the instructions for Form 1040: “You cannot request a deposit of
       your refund to an account that is not in your own name (such as your tax preparer’s own
       account).” The IRS will also explore additional opportunities to highlight this
       requirement for taxpayers and tax professionals, such as on IRS.gov and in its
       communications with tax software providers and electronic return originators.
Recommendation 3: Improve procedures for assisting taxpayers in recovering their
erroneously deposited tax refunds. Improvements should include the IRS contacting the banks to
ask them to return the refund.
       Management’s Response: IRS management will update the procedures in Internal
       Revenue Manual Section 21.4.1.4.7.3, Non-Receipt of Direct Deposited Refunds –
       “Refund Inquiry Employees,” to include instructions for assisting taxpayers whose direct
       deposit refunds were sent to an incorrect bank account due to an error by the taxpayer or
       their representative. The revised procedures will include instructions for Refund Inquiry
       function employees to complete the following actions:
           •   Contact the financial Institution by telephone and request their assistance in
               recovering the funds.
           •   If the bank recovers the direct deposit refund, request that they return it to the
               FMS through normal procedures.
           •   If the bank does not respond within 15 calendar days, contact the bank again and
               allow an additional 15 calendar days for the bank to respond.

                                                                                             Page 13
     Processes Are Not Sufficient to Minimize Fraud and Ensure the
               Accuracy of Tax Refund Direct Deposits



•   If the bank does not respond or refuses to return the credit, send a letter to the
    taxpayer explaining what happened to the direct deposit.
•   Inform the taxpayer that he or she must contact the financial institution to resolve
    the erroneous deposit because the IRS does not have the authority to demand the
    return of the refund from the designated financial institution and explain that the
    refund was deposited into the account listed on the taxpayer’s tax return.




                                                                                  Page 14
                     Processes Are Not Sufficient to Minimize Fraud and Ensure the
                               Accuracy of Tax Refund Direct Deposits



                                                                                               Appendix I

            Detailed Objective, Scope, and Methodology

Our overall objective was to determine whether the IRS processes and controls over the direct
deposit of refunds into taxpayer bank accounts are adequate to ensure that the deposits are
accurate and to identify potentially misrouted or fraudulent direct deposits. To accomplish our
objective, we:
I.         Determined whether controls are effective to prevent a taxpayer’s refund from being
           direct deposited into the wrong account in the event of a transcription error by the
           taxpayer.
           A. Interviewed IRS staff in the Wage and Investment Division and Taxpayer Advocate
              offices to determine the current and past direct deposit policies, previous findings
              related to the IRS study1 of misdirected direct deposits, and contacts at the
              Department of the Treasury’s FMS and the Federal Reserve Bank.
           B. Interviewed officials from the FMS and the Federal Reserve Bank to determine what
              direct deposit information is transmitted to financial institutions, what the industry
              standards and best practices are for controlling direct deposit transmissions, and
              whether changes could be made to prevent direct deposits of tax refunds from going
              to incorrect accounts.
           C. Interviewed officials from other Federal Government agencies that have direct
              deposit programs—such as the Social Security Administration, the Office of
              Personnel Management, and the Department of Agriculture’s National Finance
              Center—to determine 1) what the agencies do to prevent benefit recipients’ direct
              deposits from going to incorrect accounts, 2) if the agencies require that the receiving
              financial institutions match on name or other identifying information, and 3) what
              procedures the agencies follow to address incorrect direct deposits.
           D. Interviewed private sector banking industry officials to determine 1) standard
              practices in the industry to ensure that incorrect accounts are not accidentally
              credited, 2) whether the financial institutions receive identifying information with
              direct deposit transmissions and, if so, whether they currently match on the
              information being sent to them, and 3) current financial institution procedures to
              address incorrect direct deposits.



1
    Direct Deposit Review, IRS Wage and Investment Division Customer Account Services function, dated June 2005.
                                                                                                       Page 15
               Processes Are Not Sufficient to Minimize Fraud and Ensure the
                         Accuracy of Tax Refund Direct Deposits



      E. Measured the number of taxpayers affected and dollar amounts of errors committed
         by taxpayers in transcribing account information on their tax returns (to the extent
         they contacted the IRS). We used an IRS-supplied direct deposit refund trace
         database containing 16,089 cases to select a statistical sample of 242 cases
         (20 percent expected error rate and 95 +/- 5 percent confidence level) to analyze
         whether the taxpayer submitted a wrong account number that resulted in the
         misdirected refund. We did not conduct any reliability or validity testing on this
         IRS-supplied database. We identified 26 data transposition or transcription errors
         caused by taxpayers from our statistical sample of 242 and determined the income
         and filing characteristics of the 26 taxpayers. This analysis was conducted only to
         provide information on taxpayers who requested refund trace cases and was not used
         for any projections.
II.   Determined whether controls are effective to prevent a taxpayer’s refund from being
      misdirected into an employee, accomplice, or otherwise unauthorized bank account.
      A. Interviewed IRS officials, including those in the Wage and Investment Division
         Customer Account Services function and the Criminal Investigation Division,
         regarding current and past procedures to prevent purposeful misdirection of direct
         deposits, identify fraudulent returns requesting a refund using direct deposit, and/or
         prevent the issuance of the refund.
      B. Interviewed Treasury Inspector General for Tax Administration investigators who
         have worked on direct deposit diversion cases to get their perspective on control
         weaknesses and what could be done to improve controls.




                                                                                         Page 16
               Processes Are Not Sufficient to Minimize Fraud and Ensure the
                         Accuracy of Tax Refund Direct Deposits



                                                                           Appendix II

                Major Contributors to This Report

Michael E. McKenney, Assistant Inspector General for Audit (Wage and Investment Income
Programs)
Russell P. Martin, Director
Richard J. Calderon, Audit Manager
Mary Jankowski, Lead Auditor
Kenneth L. Carlson, Senior Auditor
John L. Hawkins, Senior Auditor
John B. Mansfield, Senior Auditor
Steven D. Stephens, Senior Auditor
Jennie G. Choo, Auditor
Jane G. Lee, Auditor




                                                                                   Page 17
              Processes Are Not Sufficient to Minimize Fraud and Ensure the
                        Accuracy of Tax Refund Direct Deposits



                                                                         Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Chief, Communications and Liaison CL
Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner, Wage and Investment Division SE:W
Director, Strategy and Finance, Wage and Investment Division SE:W:S
Director, Submission Processing, Wage and Investment Division SE:W:CAS:SP
Chief, Performance Improvement, Wage and Investment Division SE:W:S:PI
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Chief, Customer Liaison, Small Business/Self-Employed Division SE:S:COM
       Senior Operations Advisor, Wage and Investment Division SE:W:S




                                                                                 Page 18
    Processes Are Not Sufficient to Minimize Fraud and Ensure the
              Accuracy of Tax Refund Direct Deposits



                                                     Appendix IV

Management’s Response to the Draft Report




                                                            Page 19
Processes Are Not Sufficient to Minimize Fraud and Ensure the
          Accuracy of Tax Refund Direct Deposits




                                                        Page 20
Processes Are Not Sufficient to Minimize Fraud and Ensure the
          Accuracy of Tax Refund Direct Deposits




                                                        Page 21
Processes Are Not Sufficient to Minimize Fraud and Ensure the
          Accuracy of Tax Refund Direct Deposits




                                                        Page 22
Processes Are Not Sufficient to Minimize Fraud and Ensure the
          Accuracy of Tax Refund Direct Deposits




                                                        Page 23
Processes Are Not Sufficient to Minimize Fraud and Ensure the
          Accuracy of Tax Refund Direct Deposits




                                                        Page 24
